BECKER GALLAGHER
Briefs

and

DONNA J. WOLF, J.D.
JULIE

Records

A.

CERTIFICATE OF SERVICE
I, Julie A. Kershner, hereby certify that 1 unbound
and 40 copies of the foregoing Petition for Writ of
Certiorari in State of Tennessee v. Tamarin
Lindenberg, Individually and as Natural Guardian of
Her Minor Children ZTL and SML, were sent via Two
Day Service to the U.S. Supreme Court, and 3 copies
were sent via Two Day Service and e-mail to the
following parties listed below, this 26th day of June,
2019:
Daniel W. Van Horn
AmyM. Pepke
Elizabeth E. Chance
Gadson W. Perry
Butler Snow LLP
6075 Poplar Avenue, Suite 500
Memphis, TN 38119
(901) 680-7200
danny. vanhorn@butlersnow.com
amy. pepke@butlersnow.com
betsy .chance@butlersnow.com
will. perry@butlersnow.com
Daniel R. Ortiz
University of Virginia School of Law Supreme Court
Litigation Clinic
580 Massie Road
Charlottesville, VA 22903
(434) 924-3127
dortiz@law.virginia.edu

Counsel for Jackson National Life Insurance Company

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

KERSHNER, J.D.

Molly A. Glover
Burch, Porter & Johnson
130 N. Court Avenue
Memphis, TN 38103
901-524-5000
mglover@bpjlaw.com
Charles Silvestri Higgins
Law Office
1946 Tutwiler Avenue
Memphis, TN 38107
901-524-5122
Counsel for Respondent
HERBERT H. SLATERY III
Attorney General and Reporter
State of Tennessee
ANDREE S. BLUMSTEIN
Solicitor General
JONATHAN DAVID SHAUB
Assistant Solicitor General
Counsel of Record
Office of the Attorney General
P.O. Box 20207
Nashville, TN 37202
(615) 253-5642
jonathan.shaub@ag.tn.gov
Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 26, 2019.

Q. JG_

Julie A. ershner
Bee
Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Date:

d~

Notary Public

.Ji::L
\J

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
February 14, 2023

